la

APPENDIX A
CALIFORNIA COURT OF APPEAL
FIRST APPELLATE DISTRICT
No. A156947
[Filed May 1, 2019]
JOHN HSU,
Plaintiff and Appellant,
v.
CITY OF BERKELEY,
Defendant and Respondent.

ORDER DENYING
REQUEST TO APPEAL
BY THE COURT:
John Hsu has been declared to be a vexatious
litigant and is subject to a prefiling order. On April
18, 2019, Mr. Hsu filed an application seeking

2a
permission to appeal what he characterizes as a
February 14, 2019, order that automatically
dismissed the complaint he had filed in the court
below [Alameda County Super. Ct. No. RS18924493],
and the trial court’s failure to reverse the 2009 order
that declared him to be a vexatious litigant. That
application is denied. Mr. Hsu has failed to show a
reasonable possibility that his appeal has merit.
(Code Civ. Proc., §391.7.)
The appeal is dismissed.
Dated: 05/01/2019
Humes. A.P.J. A.P.J.
ADMINISTRATIVE PRESIDING JUSTICE

3a

APPENDIX B
CALIFORNIA COURT OF APPEAL
FIRST APPELLATE DISTRICT
No. A156947
[Filed May 13, 2019]
\

JOHN HSU,
Plaintiff and Appellant,
v.
CITY OF BERKELEY,
Defendant and Respondent.
ORDER DENYING
PETITION FOR REHEARING
Appellant’s petition for rehearing, filed on
May 10, 2019, is denied.

4a
Dated: 05/13/2019
Humes. A.P. J. A.P.J.
ADMINISTRATIVE PRESIDING JUSTICE

v

5a

APPENDIX C
IN THE SUPREME COURT OF CALIFORNIA
En Banc
No. S256112
[Filed July 10, 2019]
JOHN HSU, Plaintiff and Appellant,
v.
CITY OF BERKELEY, Defendant and Respondent.
ORDER DENYING PETITION FOR REVIEW
The petition for review is denied.
Kruger, J., was absent and did not participate.
CANTIL- SAKAUYE
ChiefJustice

6a

APPENDIX D

California Code of Civil Procedure
Part 2. Of Civil Actions
Title 3A. Vexatious Litigants
Cal. Code Civ. Proc. §§ 391-391.8
(Last amended in 2012)
§ 391. Definitions
As used in this title, the following terms have the
following meanings^
(a) "Litigation" means any civil action or
proceeding, commenced, maintained or pending in
any state or federal court.
(b) "Vexatious litigant" means a person who does
any of the following:
(l) In the immediately preceding seven-year
period has commenced, prosecuted, or maintained in
propria persona at least five litigations other than in
a small claims court that have been (i) finally
determined adversely to the person or (ii)
unjustifiably permitted to remain pending at least
two years without having been brought to trial or
hearing.
(2) After a litigation has been finally
determined against the person, repeatedly relitigates

7a
or attempts to relitigate, in propria persona, either
(i) the validity of the determination against the same
defendant or defendants as to whom the litigation
was finally determined or (ii) the cause of action,
claim, controversy, or any of the issues of fact or law,
determined or concluded by the final determination
against the same defendant or defendants as to
whom the litigation was finally determined.
(3) In any litigation while acting in propria
persona, repeatedly files unmeritorious motions,
pleadings, or other papers, conducts unnecessary
discovery, or engages in other tactics . that are
frivolous or solely intended to cause unnecessary
delay.
(4) Has previously been declared to be a
vexatious litigant by any state or federal court of
record in any action or proceeding based upon the
same or substantially similar facts, transaction, or
occurrence.
(c) "Security" means an undertaking to assure
payment, to the party for whose benefit the
undertaking is required to be furnished, of the
party's reasonable expenses, including attorney's fees
and not limited to taxable costs, incurred in or in
connection with a litigation instituted, caused to be
instituted, or maintained or caused to be maintained
by a vexatious litigant.
(
(d) "Plaintiff' means the person who commences,
institutes or maintains a litigation or causes it to be
commenced, instituted or maintained, including an
attorney at law acting in propria persona.

8a
(e) "Defendant" means a person (including
corporation, association, partnership and firm or
governmental entity) against whom a litigation is
brought or maintained or sought to be brought or
maintained.
§ 391.1. Motion for order requiring plaintiff to post
security? Motion for order dismissing the litigation;
Grounds; Time of filing
In any litigation pending in any court of this
state, at any time until final judgment is entered, a
defendant may move the court, upon notice and
hearing, for an order requiring the plaintiff to
furnish security or for an order dismissing the
litigation pursuant to subdivision (b) of Section
391.3. The motion for an order requiring the plaintiff
to furnish security shall be based upon the ground,
and supported by a showing, that the plaintiff is a
vexatious litigant and that there is not a reasonable
probability that he or she will prevail in the
litigation against the moving defendant.
§ 391.2. Hearing procedure
At the hearing upon the motion the court shall
consider any evidence, written or oral, by witnesses
or affidavit, as may be material to the ground of the
motion. Except for an order dismissing the litigation
pursuant to subdivision (b) of Section 391.3, no
determination made by the court in determining or

9a
ruling upon the motion shall be or be deemed to be a
determination of any issue in the litigation or of the
merits thereof. .
§ 391.3. Finding; Amount of security; Dismissal
(a) Except as provided in subdivision (b), if, after
hearing the evidence upon the motion, the court
determines that the plaintiff is a vexatious litigant
and that there is no reasonable probability that the
plaintiff will prevail in the litigation against the
moving defendant, the court shall order the plaintiff
to furnish, for the benefit of the moving defendant,
security in such amount and within such time as the
court shall fix.
(b) If, after hearing evidence on the motion, the
court determines that the litigation has no merit and
has been filed for the purposes of harassment or
delay, the court shall order the litigation dismissed.
This subdivision shall only apply to litigation filed in
a court of this state by a vexatious litigant subject to
a prefiling order pursuant to Section 391.7 who was
represented by counsel at the time the litigation was
filed and who became in propria persona after the
withdrawal of his or her attorney.
(c) A defendant may make a motion for relief in
the alternative under either subdivision (a) or (b)
and shall combine all grounds for relief in one
motion.

10a
§ 391.4. Dismissal on failure to post security
When security that has been ordered furnished is
not furnished as ordered, the litigation shall be
dismissed as to the defendant for whose benefit it
was ordered furnished.
§ 391.6. Motion as stay of proceedings; Time for
pleading to complaint
Except as provided in subdivision (b) of Section
391.3, when a motion pursuant to Section 391.1 is
filed prior to trial the litigation is stayed, and the
moving defendant need not plead, until 10 days after
the motion shall have been denied, or if granted,
until 10 days after the required security has been
furnished and the moving defendant given written
notice thereof. When a motion pursuant to Section
391,1 is made at any time thereafter, the litigation
shall be stayed for such period after the denial of the
motion or the furnishing of the required security as
the court shall determine.
§ 391.7. Vexatious litigant; Prefiling order
prohibiting filing of new litigation
(a) In addition to any other relief provided in this
title, the court may, on its own motion or the motion
of any party, enter a prefiling order which prohibits a
vexatious litigant from filing any new litigation in

11a
the courts of this state in propria persona without
first obtaining leave of the presiding justice or
presiding judge of the court where the litigation is
proposed to be filed. Disobedience of the order by a
vexatious litigant may be punished as a contempt of
court.
(b) The presiding justice or presiding judge shall
—--permit-the. filing .of that litigation only if it appears
that the litigation has merit and has not been filed
for the purposes of harassment or delay. The
presiding justice or presiding judge may condition
the filing of the litigation upon the furnishing of
security for the benefit of the defendants as provided
in Section 391.3.
(c) The clerk may not file any litigation presented
by a vexatious litigant subject to a prefiling order
unless the vexatious litigant first obtains an order
from the presiding justice or presiding judge
permitting the filing. If the clerk mistakenly files the
litigation without the order, any party may file with
the clerk and serve, or the presiding justice or
presiding judge may direct the clerk to file and serve,
on the plaintiff and other parties a notice stating
that the plaintiff is a vexatious litigant subject to a
prefiling order as set forth in subdivision (a). The
filing of the notice shall automatically stay the
litigation. The litigation shall be automatically
dismissed unless the plaintiff within 10 days of the
filing of that notice obtains an order from the
presiding justice or presiding judge permitting the
filing of the litigation as set forth in subdivision (b).
If the presiding justice or presiding judge issues an

12a
order permitting the filing, the stay of the litigation
shall remain in effect, and the defendants need not
plead, until 10 days after the defendants are served
with a copy of the order.
(d) For purposes of this section, "litigation"
includes any petition, application, or motion other
than a discovery motion, in a proceeding under the
Family Code or Probate Code, for any order.
(e) The presiding justice or presiding judge of a
court may designate a justice or judge of the same
court to act on his or her behalf in exercising the
authority and responsibilities provided under
subdivisions (a) to (c), inclusive.
(0 The clerk of the court shall provide the Judicial
Council a copy of any prefiling orders issued
pursuant to subdivision (a). The Judicial Council
shall maintain a record of vexatious litigants subject
to those prefiling orders and shall annually
disseminate a list of those persons to the clerks of
the courts of this state.
§ 391.8. Application to vacate prefiling order and
removing vexatious litigant's name from Judicial
Council's list of vexatious litigants; Effect of denial
(a) A vexatious litigant subject to a prefiling order
under Section 391.7 may file an application to vacate
the prefiling order and remove his or her name from
the Judicial Council's list of vexatious litigants
subject to prefiling orders. The application shall be

13a
filed in the court that entered the prefiling order,
either in the action in which the prefiling order was
entered or in conjunction with a request to the
presiding justice or presiding judge to file new
litigation unde r Section 391.7. The application shall
be made before the justice or judge who entered the
order, if that justice or judge is available. If that
justice or judge who entered the order is not
available, the application shall be made before the
presiding justice or presiding judge, or his or her
designee.
'

(b) A vexatious litigant whose application under
subdivision (a) was denied shall not be permitted to
file another application on or before 12 months has
elapsed after the date of the denial of the previous
application.
(c) A court may vacate a prefiling order and order
removal of a vexatious litigant's name from the
Judicial Council's list of vexatious litigants subject to
prefiling orders upon a showing of a material change
in the facts upon which the order was granted and
that the ends of justice would be served by vacating
the order.

